No. 20-222

In the Supreme Court of the United States
GOLDMAN SACHS GROUP, INC., ET AL., PETITIONERS
v.
ARKANSAS TEACHER RETIREMENT SYSTEM, ET AL.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

BRIEF FOR THE UNITED STATES
AS AMICUS CURIAE SUPPORTING NEITHER PARTY

MICHAEL A. CONLEY
Acting General Counsel
JEFFREY A. BERGER
Senior Litigation Counsel
BROOKE WILLIG
Attorney
Securities and Exchange
Commission
Washington, D.C. 20549

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
MALCOLM L. STEWART
Deputy Solicitor General
BENJAMIN W. SNYDER
Assistant to the Solicitor
General
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTIONS PRESENTED

1. Whether a defendant in a securities-fraud class
action may rely on the nature of the alleged misstatements in order to rebut the presumption of classwide
reliance recognized in Basic Inc. v. Levinson, 485 U.S.
224 (1988), by showing that those misstatements did not
impact the market price of the security.
2. Whether a defendant seeking to rebut the Basic
presumption by showing the absence of price impact
bears the burden of persuasion on that issue.

(I)

TABLE OF CONTENTS

Page
Interest of the United States....................................................... 1
Statement ...................................................................................... 2
Summary of argument ............................................................... 13
Argument:
I. Although no categorical rules apply, a defendant
seeking to rebut the Basic presumption may rely
on the generic nature of alleged misstatements as
evidence they had no actual price impact.................... 15
A. A court may not deny class certif ication on the
ground that, as a matter of law, the defendant’s
allegedly misleading statements were too
general to impact price ........................................... 16
B. A court may consider the nature of alleged
misstatements in assessing whether, as a
factual matter, the statements affected the
market price of the relevant security.................... 19
II. To overcome the Basic presumption, a defendant
must prove a lack of price impact, not simply
introduce evidence on the issue .................................... 27
Conclusion ................................................................................... 34
TABLE OF AUTHORITIES

Cases:
Allstate Corporation Securities Litigation, In re,
966 F.3d 595 (7th Cir. 2020) ......................................... 26, 32
Amgen Inc. v. Connecticut Retirement Plans
& Trust Funds, 568 U.S. 455 (2013) ........................ passim
Basic Inc. v. Levinson, 485 U.S. 224 (1988) ............... passim

(III)

IV
Cases—Continued:

Page

Chicago Bridge & Iron Co. N.V. Securities
Litigation, In re:
No. 17 Civ. 1580, 2019 WL 5287980 (S.D.N.Y.
Oct. 18, 2019), adopted in part, No. 17 Civ.
1580, 2020 WL 1329354 (S.D.N.Y. Mar. 23,
2020) ............................................................................ 33
No. 17 Civ. 1580, 2020 WL 1329354 (S.D.N.Y.
Mar. 23, 2020) ............................................................. 32
Director v. Greenwich Collieries, 512 U.S. 267
(1994) .............................................................................. 28, 30
Erica P. John Fund, Inc. v. Halliburton Co.:
563 U.S. 804 (2011) ................................................ 1, 3, 4, 5
309 F.R.D. 251 (N.D. Tex. 2015) .................................... 33
FindWhat Investor Group v. FindWhat.com,
658 F.3d 1282 (11th Cir. 2011), cert. denied,
568 U.S. 814 (2012)................................................................ 8
Finisar Corp. Securities Litigation, In re,
No. 11-cv-1252, 2017 WL 6026244
(N.D. Cal. Dec. 5, 2017) ...................................................... 33
G-I Holdings, Inc., In re, 385 F.3d 313
(3d Cir. 2004) ....................................................................... 30
Glickenhaus & Co. v. Household International,
Inc., 787 F.3d 408 (7th Cir. 2015) ................................. 7, 8
Gross v. FBL Financial Services, Inc.,
557 U.S. 167 (2009).............................................................. 28
Halliburton Co. v. Erica P. John Fund, Inc.,
573 U.S. 258 (2014)..................................................... passim
IBEW Local 98 Pension Fund v. Best Buy Co.,
818 F.3d 775 (8th Cir. 2016) ............................................... 32
Intuitive Surgical Securities Litigation, In re,
No. 13-cv-1920, 2016 WL 7425926
(N.D. Cal. Dec. 22, 2016) .................................................... 33

V
Cases—Continued:

Page

Matrixx Initiatives, Inc. v. Siracusano,
563 U.S. 27 (2011) ................................................................. 3
Microsof t Corp. v. i4i Ltd. Partnership,
564 U.S. 91 (2011) ............................................................... 30
National Labor Relations Board v. Transportation
Management Corp., 462 U.S. 393 (1983), abrogated
on other grounds by Director v. Greenwich Collieries, 512 U.S. 267 (1994) ................................................. 14, 29
Ohio Public Employees Retirement System v.
Federal Home Loan Mortgage Corp.,
No. 08 Civ. 160, 2018 WL 3861840 (N.D. Ohio
Aug. 14, 2018), appeal pending, No. 20-4082
(6th Cir. filed Oct. 13, 2020) ............................................... 33
Pfizer Inc. Securities Litigation, In re,
819 F.3d 642 (2d Cir. 2016) ................................................ 21
Stoneridge Investments Partners, LLC v. ScientificAtlanta, Inc., 552 U.S. 148 (2008) ....................................... 2
United States v. Gushlak, 728 F.3d 184
(2d Cir. 2013), cert. denied, 572 U.S. 1003 (2014) ............ 21
Vivendi, S.A. Securities Litigation, In re,
838 F.3d 223 (2d Cir. 2016) ............................................ 7, 17
Waggoner v. Barclays PLC, 875 F.3d 79
(2d Cir. 2017), cert. denied, 138 S. Ct. 1702 (2018) .... 10, 32
Statutes, regulation, and rules:
Administrative Procedure Act, 5 U.S.C. 551 et seq............ 30
Securities Exchange Act of 1934, ch. 404, 48 Stat. 881
(15 U.S.C. 78a et seq.) ........................................................... 2
§ 10(b), 48 Stat. 891 ................................................... 2, 3, 7
15 U.S.C. 78j(b).................................................................. 2
28 U.S.C. 1292(b) ..................................................................... 8
17 C.F.R.:
Section 240.10b-5 .................................................... passim

VI
Regulation and rules—Continued:

Page

Section 240.10b-5(b) .......................................................... 2
Fed. R. Civ. P.:
Rule 23 .............................................................................. 25
Rule 23(b)(3) .................................................................. 4, 9
Rule 23(f ) ................................................................... 10, 11
Fed. R. Evid. 301 .......................................................... passim
Miscellaneous:
Donald C. Langevoort, Basic at Twenty: Rethinking
Fraud on the Market, 2009 Wis. L. Rev. 151 (2009) ....... 22

In the Supreme Court of the United States
No. 20-222
GOLDMAN SACHS GROUP, INC., ET AL., PETITIONERS
v.
ARKANSAS TEACHER RETIREMENT SYSTEM, ET AL.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

BRIEF FOR THE UNITED STATES
AS AMICUS CURIAE SUPPORTING NEITHER PARTY
INTEREST OF THE UNITED STATES

The United States, through the Department of Justice and the Securities and Exchange Commission
(SEC), administers and enforces the federal securities
laws. The Court’s disposition of this case will affect the
ability of private plaintiffs to obtain relief for violations
of those laws. The SEC, represented by the Solicitor
General, filed a brief as amicus curiae in Basic Inc. v.
Levinson, 485 U.S. 224 (1988), the case in which this
Court first endorsed the fraud-on-the-market doctrine.
The United States has likewise filed briefs in recent
cases where the Court reaffirmed and elaborated on
that doctrine. See Halliburton Co. v. Erica P. John
Fund, Inc., 573 U.S. 258 (2014); Amgen Inc. v. Connecticut Retirement Plans & Trust Funds, 568 U.S. 455
(2013); Erica P. John Fund, Inc. v. Halliburton Co., 563
U.S. 804 (2011). Because meritorious private securities(1)

2
fraud suits, including class actions, are an essential supplement to criminal prosecutions and civil enforcement
actions brought by the Department of Justice and the
SEC, the United States has a substantial interest in this
case.
STATEMENT

1. Section 10(b) of the Securities Exchange Act of
1934, ch. 404, 48 Stat. 881 (15 U.S.C. 78a et seq.) makes
it unlawful for any person “[t]o use or employ, in connection with the purchase or sale of any security
* * * [,] any manipulative or deceptive device or contrivance in contravention of ” rules promulgated by the
SEC. § 10(b), 48 Stat. 891 (15 U.S.C. 78j(b)). SEC Rule
10b-5, which implements Section 10(b), makes it unlawful for any person, in connection with the purchase or
sale of a security, “[t]o make any untrue statement of a
material fact or to omit to state a material fact necessary in order to make the statements made, in the light
of the circumstances under which they were made, not
misleading.” 17 C.F.R. 240.10b-5(b). This Court has
“long recognized an implied private cause of action to
enforce” these provisions, Halliburton Co. v. Erica P.
John Fund, Inc., 573 U.S. 258, 268 (2014) (Halliburton
II), and Congress has “ratified th[at] implied right
of action,” Stoneridge Investment Partners, LLC v.
Scientific-Atlanta, Inc., 552 U.S. 148, 165 (2008).
In order to recover in a private suit under Section
10(b) and Rule 10b-5, a plaintiff must prove: “(1) a material misrepresentation or omission by the defendant;
(2) scienter; (3) a connection between the misrepresentation or omission and the purchase or sale of a security;
(4) reliance upon the misrepresentation or omission; (5)

3
economic loss; and (6) loss causation.” Matrixx Initiatives, Inc. v. Siracusano, 563 U.S. 27, 37-38 (2011) (citation omitted).
This case principally concerns the reliance element.
When this Court first held “that reliance is an element
of a Rule 10b-5 cause of action,” the Court explained
that proof of reliance establishes the “requisite causal
connection between a defendant’s misrepresentation
and a plaintiff’s injury.” Basic Inc. v. Levinson, 485
U.S. 224, 243 (1988). The “traditional (and most direct)
way a plaintiff can demonstrate reliance” is to show that
he was aware of the false statement and purchased
stock “based on that specific misrepresentation.” Erica
P. John Fund, Inc. v. Halliburton Co., 563 U.S. 804, 810
(2011) (Halliburton I). In Basic, however, this Court
recognized “an alternative means of satisfying” the reliance element of a private Section 10(b) claim, an approach that has come to be known as the “fraud-on-themarket theory.” Halliburton II, 573 U.S. at 275, 278;
see Basic, 485 U.S. at 241-247.
The fraud-on-the-market theory is “a substantive
doctrine of federal securities-fraud law” that rests on
two basic premises. Amgen Inc. v. Connecticut Retirement Plans & Trust Funds, 568 U.S. 455, 462 (2013).
First, “certain well developed markets are efficient processors of public information,” id. at 461, including “any
material misrepresentations,” Basic, 485 U.S. at 246.
Second, “rather than scrutinize every piece of public information about a company for himself, the typical ‘investor who buys or sells stock at the price set by the
market does so in reliance on the integrity of that
price’—the belief that it reflects all public, material information.” Halliburton II, 573 U.S. at 268 (quoting
Basic, 485 U.S. at 247). Based on these premises, the

4
fraud-on-the-market theory provides that, “if a plaintiff
shows that the defendant’s misrepresentation was public and material and that the stock traded in a generally
efficient market, he is entitled to a presumption that the
misrepresentation affected the stock price.” Id. at 279.
“[I]f the plaintiff also shows that he purchased the stock
at the market price during the relevant period, he is entitled to a further presumption that he purchased the
stock in reliance on the defendant’s misrepresentation.”
Ibid.
The fraud-on-the-market doctrine “can be invoked
by any Rule 10b-5 plaintiff.” Amgen, 568 U.S. at 462.
The theory has “particular significance” for class actions, ibid., however, because it allows plaintiffs to prove
reliance through evidence common to an entire class,
thereby increasing the likelihood that “questions of law
or fact common to class members [will] predominate
over any questions affecting only individual members.”
Fed. R. Civ. P. 23(b)(3); see Halliburton I, 563 U.S. at
809-810. Accordingly, prospective class plaintiffs often
seek to establish the factual predicates of a fraud-onthe-market theory at the class-certification stage.
2. In three recent decisions, this Court has refined
the legal framework that courts apply to resolve classcertification questions when Rule 10b-5 plaintiffs invoke the fraud-on-the-market theory.
In Halliburton I, the Court considered whether, in
order to obtain class certification, plaintiffs who invoke
the fraud-on-the-market theory must prove “ ‘loss causation,’ ” i.e., that “the defendant’s deceptive conduct
caused their claimed economic loss.” 563 U.S. at 807.
The Court held that proof of loss causation is not required at the class-certification stage because “[l]oss
causation has no logical connection” to the efficiency of

5
the relevant market or to any other factual predicate of
a fraud-on-the-market theory. Id. at 813. Thus, while a
Rule 10b-5 plaintiff must ultimately prove loss causation in order to prevail on the merits, such proof is not
a prerequisite to class certification.
Two years later, in Amgen, this Court considered
whether Rule 10b-5 plaintiffs were required to establish
the materiality of the alleged misstatements before a
class could be certified. 568 U.S. at 465-466. The Court
acknowledged that materiality, unlike loss causation, is
not simply an element of the ultimate Rule 10b-5 claim,
but also a prerequisite to establishing the fraud-on-themarket theory. Id. at 471-472. The Court nevertheless
concluded that plaintiffs need not prove materiality at
the class-certification stage because the determination
whether a particular misstatement was material is common to the whole class. A failure to prove materiality
at a later stage of the case therefore would not result in
individual issues predominating; rather, it “would end
the case for one and for all” as “no claim would remain
in which individual reliance issues could potentially predominate.” Id. at 468.
Most recently, in Halliburton II, this Court reaffirmed “Basic’s presumption of reliance” and rejected
the argument that it should be overruled or modified,
but held that defendants may “defeat the presumption
at the class certification stage through evidence that the
misrepresentation did not in fact affect the stock price.”
573 U.S. at 266, 279. The Court explained that one of
the “constituent” elements of the fraud-on-the-market
theory is that, “if a plaintiff shows that the defendant’s
misrepresentation was public and material and that the
stock traded in a generally efficient market, he is enti-

6
tled to a presumption that the misrepresentation affected the stock price.” Id. at 279. That presumed
“[p]rice impact is * * * an essential precondition for
any Rule 10b-5 class action” because it provides “ ‘the
basis for finding that the fraud had been transmitted
through [the] market price,’ ” and thus for establishing
reliance on a class-wide basis. Id. at 281-282 (quoting
Basic, 485 U.S. at 248). The Court held that, when a
defendant “show [s]” through “direct evidence” “that
the alleged misrepresentation did not actually affect the
stock’s market price,” it is no longer appropriate to presume such class-wide reliance, and “[e]ach plaintiff
would have to prove reliance individually.” Ibid. When
a defendant establishes that the alleged misstatements
had no price impact, class certification therefore is inappropriate because individual questions of reliance
would predominate at trial. See ibid.
3. Respondents are shareholders of Goldman Sachs
Group, Inc., who brought a securities-fraud class action
against Goldman Sachs and three of its former executives (petitioners here). Pet. App. 5a-6a. Respondents
allege that between 2006 and 2010, petitioners made
statements about Goldman Sachs’s conflict-of-interest
policies and business practices that were misleading in
light of Goldman Sachs’s actual, undisclosed conflicts of
interest in several transactions that it had structured,
and that those misleading statements artificially maintained the company’s stock at an inflated price. Id. at
4a-6a. The allegedly misleading statements included
the assertions that Goldman Sachs “ha[d] extensive procedures and controls that are designed to identify and
address conflicts of interest,” that “[o]ur clients’ interests always come first,” and that “[w]e are dedicated to
complying fully with the letter and spirit of the laws,

7
rules and ethical principles that govern us.” Id. at 4a5a (citations omitted). Respondents further allege that
the markets learned of the conflicts in April 2010, when
the SEC brought an enforcement action against Goldman Sachs based on one of the transactions alleged to
involve undisclosed conflicts (the “Abacus CDO” transaction), and that the revelation about the company’s
conflict-of-interest problems contributed to a nearly
13% decline in its share price that day. Id. at 6a-7a, 81a.
Respondents also allege that several subsequent news
reports about SEC and Department of Justice investigations into Goldman Sachs revealed that the conflicts
of interest were more extensive than investors had at
first appreciated, causing the company’s stock to drop
even further. See id. at 81a-82a.
Respondents filed the present securities-fraud suit
on behalf of a putative class of investors who had purchased Goldman Sachs shares between February 5,
2007, and June 10, 2010. Pet. App. 6a. They allege that,
but for petitioners’ misleading statements, the price at
which the members of the class purchased their shares
during that period would have been lower, better reflecting the truth about Goldman Sachs’s alleged conflicts. Ibid. This theory of liability under Section 10(b)
and Rule 10b-5—in which the defendants’ misleading
statements are not alleged to have caused the stock
price to rise, but instead to have maintained the price
when it would otherwise have declined—is often
referred to as a “price-maintenance” or “inflationmaintenance” theory. Id. at 11a & n.5, 16a (citation
omitted); see, e.g., In re Vivendi, S.A. Securities Litigation, 838 F.3d 223, 256-258 (2d Cir. 2016) (endorsing
inflation-maintenance theory); Glickenhaus & Co. v.
Household International, Inc., 787 F.3d 408, 418-419

8
(7th Cir. 2015) (same); FindWhat Investor Group v.
FindWhat.com, 658 F.3d 1282, 1314-1316 (11th Cir.
2011) (same), cert. denied, 568 U.S. 814 (2012). 1
Petitioners moved to dismiss the suit, arguing that
the alleged misstatements were so vague and general as
to be immaterial as a matter of law, because no reasonable investor could have relied on them in making investment decisions. See 868 F. Supp. 2d 261. The district court rejected the argument, and the court denied
petitioners’ subsequent motion to pursue an interlocutory appeal on that issue under 28 U.S.C. 1292(b). See
868 F. Supp. 2d 261; 2014 WL 5002090.
After the district court denied petitioners’ motion to
dismiss, respondents requested class certification purIn evaluating whether a defendant’s misstatement fraudulently
maintained a security’s price, lower courts have compared the stock
price following the alleged misstatement to the price that resulted
when the defendant truthfully revealed the relevant adverse information, rather than to the price that would have resulted if the defendant had simply remained silent instead of making the alleged
misstatement. See, e.g., Glickenhaus & Co., 787 F.3d at 417-418
(“As soon as the f irst false statement was made, that overpricing
became fully attributable to the false statement, even if the stock
price didn’t change at all, because had the statement been truthful,
the price would have gone down.”); FindWhat Investor Group, 658
F.3d at 1315 n.33 (“If a company knowingly makes materially false
representations with the purpose and effect of preventing the stock
price from falling to the level that the truth would yield, the company is responsible for perpetuating inflation within the stock
price.”). The court of appeals followed that approach here. See Pet.
App. 17a. Petitioners did not seek this Court’s review of the
question whether the appropriate comparator in an inflationmaintenance case is a truthful disclosure about the cause of the inflated price, or instead the simple absence of a misleading statement. This case therefore provides no occasion for the Court to consider that question.
1

9
suant to Federal Rule of Civil Procedure 23(b)(3), relying on the fraud-on-the-market theory to establish
class-wide proof of reliance and presenting evidence to
satisfy the prerequisites for invocation of the theory. In
opposing class certification, petitioners argued that certain expert reports showed that the “challenged general, aspirational statements did not impact Goldman
Sachs’ stock price.” D. Ct. Doc. 142, at 15 (Apr. 6, 2015)
(capitalization altered; emphasis omitted). One economic analysis concluded that at the time the alleged
misrepresentations were made, they had no impact on
price. Pet. App. 86a. A separate analysis examined the
connection between the stock price and the alleged corrective disclosures, starting with disclosure of the
SEC’s enforcement action. Id. at 87a. That analysis
concluded that the price movement reflected the market’s reaction to news of the enforcement actions themselves, not to any revelation about the underlying conflicts of interests. Ibid. Petitioners also presented evidence that Goldman Sachs’s stock price had not decreased on prior occasions when media outlets had reported about conflicts of interest at the company. Id. at
90a.
The district court certified the class, holding that petitioners had failed to rebut the presumption of classwide reliance. Pet. App. 79a-80a. The court declined to
consider some of petitioners’ evidence regarding a lack
of price impact, including the analysis purporting to
show that earlier media reports of conflicts of interest
at Goldman Sachs had not affected the stock price. Id.
at 90a-91a. The court held that such evidence related to
the materiality of the statements about conflicts, rather
than to their price impact, and that Amgen therefore

10
precluded the court from considering the evidence at
the class-certification stage. Ibid.
4. The court of appeals authorized an interlocutory
appeal, see Fed. R. Civ. P. 23(f ), and vacated the class
certification. Pet. App. 60a-78a. Applying recent circuit
precedent, the court held that once respondents established “the preliminary elements to invoke the Basic presumption”—that Goldman Sachs’s shares traded on a
generally efficient market, the alleged misrepresentations were public, and the putative class members purchased during the relevant period—the burden shifted
to petitioners to establish a lack of price impact by a
preponderance of the evidence. Id. at 73a-76a (discussing Waggoner v. Barclays PLC, 875 F.3d 79 (2d Cir.
2017), cert. denied, 138 S. Ct. 1702 (2018)). Because it
was unclear from the district court’s decision whether
the district court had correctly applied a preponderance
standard, the court of appeals vacated the district
court’s decision. Id. at 76a.
The court of appeals also held that on remand, the
district court should consider the evidence about earlier
media reports of conflicts that it had previously refused
to consider. See Pet. App. 76a-78a. The court of appeals
explained that the evidence was permissible “to show
that [petitioners’] statements about Goldman’s efforts
to avoid conflicts of interest ‘did not actually affect the
stock’s market price.’ ” Id. at 77a (quoting Halliburton
II, 573 U.S. at 282). It observed that, under Halliburton II, such evidence must be considered at the classcertification stage even though “price impact touches on
materiality.” Ibid.
5. On remand, the district court again certified a
class after considering additional submissions, includ-

11
ing testimony from three experts during a day-long evidentiary hearing. Pet. App. 47a-59a. The court concluded that petitioners had not overcome the presumption of class-wide reliance because they had “failed to
establish, by a preponderance of the evidence, that the
alleged misstatements had no price impact.” Id. at 54a.
In its analysis, the court addressed the evidence regarding the lack of market reaction to earlier media reports
about potential conflicts at Goldman Sachs. See id. at
55a-56a & n.6. The court observed that, because those
earlier reports had contained less detail about Goldman
Sachs’s alleged conflicts of interest than did the SEC’s
enforcement action, the market could have reacted to
the different disclosures in different ways. Ibid.
6. The court of appeals again authorized an interlocutory appeal under Rule 23(f ), and a divided panel of
the court affirmed the class-certification decision. See
Pet. App. 1a-46a.
As relevant here, the court of appeals first rejected
petitioners’ argument that “ ‘general statements’ ” are
categorically “insufficient as evidence of price impact”
in cases brought under an inflation-maintenance theory.
Pet. App. 19a; see id. at 15a-27a. The court held that
treating “ ‘general statements’ ” as “ ‘[in]capable of
maintaining inflation in a stock price as a matter of law’
for the purpose of class certif ication,” as petitioners
urged, would be inconsistent with Amgen because it
would reintroduce “materiality by another name” at the
class-certification stage. Id. at 21a, 24a (quoting Pet.
C.A. Br. 48). The court stated that “[w]hether alleged
misstatements are too general to demonstrate price impact has nothing to do with the issue of whether common questions predominate over individual ones.” Id.

12
at 23a. However, the court also stated that “just because something looks like materiality does not mean it
is materiality,” particularly given that price impact
“also resembles materiality, but defendants may attempt to disprove it at class certification.” Ibid.
The court of appeals then considered the district
court’s determinations that “the prerequisites for the
Basic presumption are met” and that petitioners had
“failed to rebut” that presumption. Pet. App. 27a; see
id. at 27a-35a. It held that the district court had applied
the correct legal standard, and that the court had not
committed clear error in weighing the evidence presented and determining that petitioners had failed to
carry their burden of disproving price impact. See id.
at 34a-35a.
Judge Sullivan dissented. Pet. App. 39a-46a. In his
view, the “lack of movement in the share price” following “36 earlier news reports that revealed the falsity of
the misstatements alleged in the complaint * * * proved
that the later drop was caused by something other than
the disclosure of the alleged conflicts of interest.” Id.
at 41a-42a. He viewed “the nature of the alleged misstatements” as reinforcing that conclusion, and he criticized the majority for “strain[ing] to avoid looking at
the statements themselves for fear that such a review
amounts to ‘smuggling materiality into Rule 23.’ ” Id. at
44a (quoting id. at 22a). Judge Sullivan would have ordered that the class be decertified on the ground that
“the generic quality of Goldman’s alleged misstatements, coupled with” the lack of price movement in connection with the earlier media reports, “clearly compels
the conclusion that the stock drop following the corrective disclosures” was not caused by “the misstatements alleged in the complaint.” Id. at 45a.

13
SUMMARY OF ARGUMENT

I. A. In the proceedings below, petitioners argued
that the generic content of the alleged misstatements in
this case made it impossible, as a matter of law, that the
misstatements could have had a price impact. The court
of appeals correctly rejected that categorical argument.
No categorical rule exists under which misstatements
phrased in general terms can be deemed legally incapable of affecting a security’s price, regardless of other
evidence. On the contrary, courts considering particular facts may appropriately credit evidence that seemingly generic statements would have been significant to
the trading decisions of reasonable investors, or that a
generally efficient market acted inefficiently on specific
occasions and reacted to the statements even though
doing so was objectively unreasonable.
B. In addition to rejecting petitioners’ categorical
claim, the court of appeals’ decision can be understood
to have held that the generic nature of the misstatements alleged in a securities-fraud suit is legally irrelevant to a court’s determination of price impact. As petitioners correctly argue (Br. 24-33), that proposition is
incorrect. Evidence about the nature of the alleged misstatements may sometimes be important in determining
whether the claimed securities violations more likely
than not affected the market price, as part of the overall
mix of evidence presented. Under this Court’s decision
in Halliburton II, a court may not ignore that evidence
in assessing price impact at the class-certification stage
merely because the evidence would also be relevant to
the question of materiality, which would be resolved at
the merits stage. 573 U.S. at 281-284.
It is unclear whether the court of appeals erroneously treated evidence about the nature of the alleged

14
misstatements here as legally irrelevant, or instead considered the nature of those statements (along with the
other evidence presented) and simply found the evidence insufficient to establish clear error in the district
court’s assessment of price impact. This Court therefore should vacate the decision below and remand for
further proceedings.
II. The court of appeals also held that, once a plaintiff establishes the factual predicates for the fraud-onthe-market theory, a defendant seeking to rebut the
presumption of reliance by showing a lack of price impact bears the burden of persuasion to show that the alleged misstatements had no impact on price. That holding was correct. Under this Court’s decisions in Basic
and Halliburton II, a defendant overcomes the presumption by proving a lack of price impact, not by
merely introducing evidence on the issue. See Basic,
485 U.S. at 248; Halliburton II, 573 U.S. at 279.
Federal Rule of Evidence 301 does not require a different result. As this Court explained several years before it decided Basic, Rule 301 “in no way restricts the
authority of a court or an agency to change the customary burdens of persuasion in a manner that otherwise
would be permissible.” National Labor Relations
Board v. Transportation Management Corp., 462 U.S.
393, 404 n.7 (1983), abrogated on other grounds by Director v. Greenwich Collieries, 512 U.S. 267 (1994).
When the Basic Court adopted the fraud-on-the-market
doctrine, Rule 301 therefore did not preclude the Court
from requiring defendants affirmatively to prove a lack
of price impact in circumstances where the fraud-onthe-market theory would suggest that price impact is
likely to be present. Instead, Rule 301 merely clarifies
that “this rule does not shift the burden of persuasion.”

15
Fed. R. Evid. 301 (emphasis added). In Halliburton II,
this Court declined to validate the defendants’ suggestion that it rely on Rule 301 in modifying how the Basic
presumption operates, and the Court should reject petitioners’ materially identical argument here.
ARGUMENT
I. ALTHOUGH NO CATEGORICAL RULES APPLY, A
DEFENDANT SEEKING TO REBUT THE BASIC
PRESUMPTION MAY RELY ON THE GENERIC
NATURE OF
ALLEGED MISSTATEMENTS
AS
EVIDENCE THEY HAD NO ACTUAL PRICE IMPACT

The court of appeals correctly rejected petitioners’
argument below that, as a matter of law, the generic
character of petitioners’ alleged misstatements negated
the possibility of a price impact and thus precluded certification of a class. Circumstances may arise in which
a general statement would be significant to a reasonable
investor’s trading decisions. And because market efficiency does not mean perfect efficiency, even a legally
immaterial statement might affect the price of a security traded on a generally efficient market. There is
consequently no legal or logical basis for a rule that general or generic statements are categorically incapable
of affecting a security’s market price.
The court of appeals’ opinion can also be read, however, to hold that the generic nature of alleged misstatements cannot even be considered as evidence when assessing whether the misstatements had an actual price
impact. See Pet. App. 23a, 37a-38a & n.24. Such a holding would be erroneous. Evidence regarding the nature
of the statements, considered as part of the total mix of
price-impact evidence presented to show that investors
did or did not attach weight to a particular statement, is
logically relevant to the determination whether a price

16
impact occurred. Nothing in this Court’s precedents
forecloses a court from considering such evidence for
that purpose. See Halliburton II, 573 U.S. at 279-283.
Because it is unclear whether the court of appeals
properly considered the nature of the alleged misstatements in reviewing the district court’s assessment of
price impact here, this Court should vacate the decision
below and remand for further consideration.
A. A Court May Not Deny Class Certification On The
Ground That, As A Matter Of Law, The Defendant’s
Allegedly Misleading Statements Were Too General To
Impact Price

Petitioners argued below that general statements
are incapable, as a matter of law, of affecting the price
of securities traded on an efficient market. See, e.g.,
Pet. C.A. Br. 46 (“[G]eneral statements, like those challenged here, are incapable of impacting a company’s
stock price as a matter of law.”). That argument appears to rest on two subsidiary propositions. The first
is that such general statements are categorically immaterial, i.e., that no reasonable investor would ever view
them as significant. See id. at 43 (“[G]eneral statements,
like those challenged here, about business principles
and conflicts controls are ‘too general to cause a reasonable investor to rely upon them.’ ”) (citation omitted).
The second is that immaterial statements can never affect
a security’s trading price on an efficient market. See
Pet. App. 24a (noting petitioners’ argument that “general statements cannot maintain price inflation because
no reasonable investor would have relied on them”).
Both of those categorical propositions are unsound.
Reasonable investors may sometimes attach significance to even very general statements about a company’s
practices. And because generally efficient markets may

17
react inefficiently to particular disclosures at particular
points in time, even immaterial statements are capable
of impacting securities prices on such markets.
1. A statement’s generic character may suggest that
a reasonable investor would not have deemed it signif icant in making trading decisions. In assessing materiality, however, a court would not apply a per se rule
to that effect, but would consider any other evidence or
allegations that the parties offered on that issue. For
example, a Rule 10b-5 plaintiff might allege or offer expert testimony that, precisely because a particular
statement about a company’s goods or services had become routine, market professionals would notice and attach significance to the company’s failure to reiterate
the statement at an expected time. Cf. In re Vivendi,
S.A. Securities Litigation, 838 F.3d 223, 257 (2d Cir.
2016) (“Perhaps, in the face of silence, inflation could
have remained unchanged. But it also could have * * *
dissipated gradually because the defendant’s silence in
the face of escalating concerns on a particular subject
would have all but amounted to an admission.”). Alternatively, a plaintiff might present evidence of actual
market impact to support a showing of materiality. Particularly if the question of materiality is otherwise close,
proof that a particular statement actually caused a price
impact on an efficient market—i.e., that traders in the
aggregate treated the statement as significant—could
suggest (though not definitively prove) that a reasonable investor would have given the statement weight.
The categorical rule for generic misstatements that
petitioners advocated below therefore would be unsound even as a rule of materiality. A court determining
whether such a misstatement was material would consider its generic character, together with any additional

18
evidence bearing on whether a reasonable investor
would have viewed the misstatement as significant. If
the misstatement was made publicly and concerned a
security traded on an efficient market, that additional
evidence could include information about whether or
how that market reacted. Thus, even if immaterial misstatements were legally incapable of causing a price impact in an efficient market, the categorical rule that petitioners previously advocated should be rejected inasmuch as it would render all this other evidence irrelevant in determining whether the misstatement was material.
2. Even if a misstatement is immaterial, moreover,
that would not categorically render the misstatement
incapable of producing a price impact. The question of
materiality is an objective one that turns on how a hypothetical reasonable investor would have behaved under particular circumstances. The question of price impact, by contrast, is purely factual and turns on evidence about how a particular securities market actually
reacted (or failed to react) to particular disclosures. 2
To invoke the Basic presumption, a Rule 10b-5 plaintiff must show that the security in question traded on an
efficient market. See pp. 3-4, supra. But the fact that
a market for a particular security is generally efficient
does not preclude the possibility that the market will

The distinction between reasonable and actual behavior is especially clear with respect to specif ic investors. A particular investor
may attach signif icance to a statement that the hypothetical reasonable investor would view as irrelevant. Indeed, the point of def ining
reliance and materiality as distinct elements of a private Rule 10b5 action, see pp. 2-3, supra, is that the two do not always stand or
fall together.
2

19
react (inefficiently) to a particular immaterial statement at a particular point in time. “Basic’s presumption
of reliance does not rest on a ‘binary’ view of market
efficiency,” in which the market for a particular security
is either fully efficient or not at all efficient. Halliburton II, 573 U.S. at 272. The determination that a particular market is efficient enough to trigger the Basic
presumption therefore does not imply that the market
invariably processes information in a way that accords
with the behavior of a hypothetical reasonable investor.
The Court in Halliburton II recognized that, “[b]ecause market efficiency is not a yes-or-no proposition, a
public, material misrepresentation might not affect
a stock’s price even in a generally efficient market.”
573 U.S. at 279. The converse result is likewise possible. Because even a generally efficient market might
react inefficiently on a particular occasion, an immaterial misrepresentation might have an actual price impact on such a market. Evidence that a misstatement
was too generic (or otherwise too trivial) for a reasonable investor to rely on it therefore does not definitively
establish that no actual price impact occurred.
B. A Court May Consider The Nature Of Alleged
Misstatements In Assessing Whether, As A Factual
Matter, The Statements Affected The Market Price Of
The Relevant Security

For the foregoing reasons, the generic character of
an alleged misstatement does not legally preclude a factual finding that the misstatement affected a security’s
price on an efficient market, as petitioners argued below. Evidence concerning the generality of a misstatement may be relevant, however, to a court’s determination whether a price impact occurred—as petitioners

20
now emphasize in this Court. See Pet. Br. 32 (explaining that petitioners now advance only this “more modest submission”). In deciding whether class certification should be granted in a securities action, a court
therefore should consider evidence about the nature of
the particular alleged misstatements, along with any
other available evidence, to determine whether the defendant has shown as a factual matter “that the alleged
misrepresentation did not * * * actually affect the market price.” Halliburton II, 573 U.S. at 269. Because it
is unclear whether the court of appeals deviated from
this approach, the court’s judgment should be vacated
and the case remanded for further proceedings.
1. Under Basic, when plaintiffs show “that [a] defendant’s misrepresentation was public and material
and that the stock traded in a generally efficient market, [they are] entitled to a presumption that the misrepresentation affected the stock price.” Halliburton
II, 573 U.S. at 279. Any investors who purchased at the
market price during the relevant period are accordingly
presumed to have done so “in reliance on the defendant’s misrepresentation,” thereby allowing their claims
to be considered on a class-wide basis. Ibid. The Court
in Amgen further held that, although a Rule 10b-5 plaintiff must ultimately establish the materiality of the defendant’s misrepresentation in order to prevail on the
merits, the court need not determine materiality at the
class-certification stage of the case. See 568 U.S at 467.
In Halliburton II, the Court held that a Rule 10b-5
defendant can overcome the Basic presumption of
class-wide reliance, and thereby defeat class certification, by proving that “the asserted misrepresentation
(or its correction) did not affect the market price of the
defendant’s stock.” 573 U.S. at 279-280. Defendants

21
commonly seek to make that showing by introducing
“event studies” like the ones on which petitioners relied
below. See id. at 280; see also United States v. Gushlak,
728 F.3d 184, 201 (2d Cir. 2013) (explaining that the use
of event studies has become “standard operating procedure in federal securities litigation”), cert. denied, 572
U.S. 1003 (2014).
To assess whether a particular event or news report
caused a change in a stock’s price, event studies isolate
company-specific (as opposed to market- or industrywide) price movements in the stock and evaluate
whether such movements were statistically significant
around the time of the event or report. See Pet. App.
67a n.5 (explaining that both petitioners and respondents introduced such event studies in this case); see
also, e.g., In re Pfizer Inc. Securities Litigation, 819
F.3d 642, 649 (2d Cir. 2016) (further describing the nature and use of event studies). When event studies reveal no statistically significant movement in a company’s stock price at either the time that an alleged misstatement was made or the time when it was corrected,
it is relatively straightforward to conclude that the alleged misstatement had no price impact.
Often, however, securities-fraud class actions follow
significant changes in a company’s stock price, such as
the drop from $184.27 to $160.70 that Goldman Sachs’s
stock experienced on the day that the SEC filed its
fraud suit alleging conflicts of interest in relation to the
Abacus CDO. See Pet. App. 81a; p. 7, supra. When significant price changes correspond to the time of the alleged misstatement or corrective disclosure, the priceimpact analysis becomes more complicated. In such
cases, the defendant can disprove price impact only by
showing that, although a statistically significant price

22
change occurred at the time of the alleged misstatement
or correction, the change likely occurred entirely for
other reasons.
When a court conducts that inquiry, the nature of the
alleged misstatements will sometimes be an important
piece of evidence. As explained above (see p. 19, supra),
“Basic’s presumption of reliance * * * does not rest on
a ‘binary’ view of market efficiency.” Halliburton II,
573 U.S. at 272. Instead, “market efficiency is a matter
of degree.” Ibid.; see Donald C. Langevoort, Basic at
Twenty: Rethinking Fraud on the Market, 2009 Wis.
L. Rev. 151, 167 (2009) (“[I]nformational efficiency is
not a binary, yes or no question.”). And the extent to
which a particular market is efficient may vary from one
type of information to another. See Amgen, 568 U.S. at
471 n.6 (“[A] market may more readily process certain
forms of * * * information.”). A defendant thus might
attempt to disprove price impact through evidence that
the nature of the misstatements alleged in a particular
suit made them unlikely to be incorporated into the
market price.
Such a showing could take various forms. A defendant might argue, for example, that the alleged misstatement involved “obscure technical data” that, while publicly disclosed “in a filing with the Securities and Exchange Commission,” would nevertheless have been
“difficult to * * * understand” for most financial analysts. Amgen, 568 U.S. at 471 n.6. The defendant might
argue that, even if such a misstatement was material, in
the sense that a reasonable investor who understood its
import would have viewed it as significant in making
trading decisions, the misstatement was unlikely to
have affected the market price because most market

23
participants would not have understood that significance. Especially if the other evidence about price impact was conflicting or ambiguous, evidence about the
nature of the misstatement—i.e., evidence about whether
the misstatement involved the sort of information that
was inherently likely to affect the market price—might
reasonably influence the court’s determination whether
the defendant had disproved price impact by a preponderance of the evidence. If the court concluded that the
defendant had carried that burden, class certification
would be denied, but any investors who had relied directly on the misstatement (because they had the specialized knowledge to appreciate its significance) could
pursue their own securities-fraud claims on an individual basis.
2. In dissent below, Judge Sullivan suggested that
the nature of the alleged misstatements here was relevant in a somewhat analogous way. See Pet. App. 44a46a. In his view, petitioners had established that 36
prior media disclosures about conflicts of interest at
Goldman Sachs had caused “no impact on Goldman’s
stock price.” Id. at 44a. He inferred that “the obvious
explanation for why the share price didn’t move after 36
separate news stories on the subject of Goldman’s conflicts is that no reasonable investor would have attached
any significance to the generic statements on which [respondents’] claims are based.” Id. at 44a-45a. Judge
Sullivan concluded that the “generic quality of Goldman’s alleged misstatements, coupled with” the absence
of any price movement after the 36 prior disclosures,
“clearly compels the conclusion that the stock drop following the corrective disclosures was attributable to
something other than the misstatements alleged in the
complaint”—the “most obvious explanation” being

24
“that the drop was caused by news that the SEC and
[Department of Justice] were pursuing enforcement actions against Goldman.” Id. at 45a (emphasis omitted).
He accordingly would have held that the district court
had clearly erred in finding that petitioners failed to disprove price impact. Id. at 46a. Whether or not his ultimate conclusion as to price impact was right, Judge Sullivan correctly treated the nature of the alleged misstatements, and the inherent likelihood or unlikelihood
that they would influence investor behavior, as relevant
to the price-impact determination.
3. The panel majority viewed things differently. Responding in part to petitioners’ broader arguments
about the role of the inflation-maintenance theory, the
majority stated that “[w]hether alleged misstatements
are too general to demonstrate price impact has nothing
to do with the issue of whether common questions predominate over individual ones.” Pet. App. 23a. The majority attributed to Judge Sullivan the view that Goldman Sachs’s statements were “too general as a matter
of law” to support a Rule 10b-5 claim, and that “price
maintenance cases are limited to more specific statements related to performance or corporate expectations. ” Id. at 37a. The majority also stated that Judge
Sullivan’s approach “would inject materiality into [the]
Rule 23 analysis in the name of limiting the types of
statements that can be considered for price maintenance.” Ibid. While noting that the issue of materiality
would “be addressed by the district court at an appropriate time,” the court of appeals held that it was
“preclude[d]” from considering materiality at the classcertif ication stage. Id. at 38a.
To the extent the court of appeals rejected the view
that Goldman Sachs’s alleged misstatements were “too

25
general as a matter of law” to establish price impact,
Pet. App. 37a, the court’s analysis was correct. See Pt.
I. A., supra. But the assertion that the misstatements’
generic quality has “nothing to do with” the Rule 23 inquiry, Pet. App. 23a, suggests that the nature of the
statements cannot even be considered in determining
whether petitioners have disproved price impact. Cf.
Br. in Opp. 20 (defending a version of this argument).
To the extent the court adopted that latter view, it was
incorrect: evidence about the nature of the misstatements alleged in a particular case will sometimes contribute to the overall body of relevant evidence for determining whether those misstatements had a price impact. See pp. 20-23, supra.
The court of appeals was also wrong to the extent it
suggested that consideration of a statement’s generic
quality as part of the price-impact inquiry is impermissible because it “would inject materiality into [the
court’s] Rule 23 analysis.” Pet. App. 37a; see Br. in Opp.
20 (arguing that relying on the nature of the statements
to disprove price impact would be impermissible because, “if the other evidence does not disprove price impact, allowing defendants to nonetheless defeat class
certification by arguing that their statements were immaterial would make materiality the defense to class
certification Amgen rejected”) (emphasis omitted). As
we explain above, evidence that reasonable investors
would not have relied on particular statements is logically relevant to, though not dispositive of, the question
whether those statements actually moved the market.
And in holding that Rule 10b-5 defendants can defeat
class certification by disproving price impact, the Court

26
in Halliburton II did not limit the evidence that defendants may introduce, or the inferences they may ask the
court to draw, in order to carry their burden.
In particular, the Court in Halliburton II did not
suggest that evidence relevant to both materiality and
price impact must be ignored at the class-certification
stage simply because the class-certification inquiry
does not encompass materiality as such. Indeed, even
if materiality were not a separate element of a private
Rule 10b-5 cause of action, a court tasked with determining price impact could consider the probable reactions of a hypothetical reasonable investor in assessing
the likely cause of a movement in the price of a security.
Thus, although “the same evidence [pertinent to price
impact] is likely to have obvious implications for the offlimits merits issue[] of materiality,” a court “may not
use the overlap to refuse to consider the evidence. The
court must still consider the evidence as relevant to
price impact,” even while “consciously avoid[ing] deciding materiality.” In re Allstate Corporation Securities
Litigation, 966 F.3d 595, 608 (7th Cir. 2020).
Because it is unclear whether the court of appeals refused to consider the nature of the alleged misstatements as relevant evidence in reviewing the district
court’s price-impact finding, the Court should clarify
that such a position would be incorrect, vacate the decision below, and remand for further proceedings. 3
The United States takes no position on the case-specif ic question
whether the district court’s assessment of price impact was clearly
erroneous. The United States also takes no position on whether petitioners adequately preserved their present argument about the
evidentiary value of the statements’ general nature. Compare Br.
in Opp. 24-25, with Cert. Reply Br. 10. Those questions are better
considered in the f irst instance by the court of appeals on remand.
3

27
II. TO OVERCOME THE BASIC PRESUMPTION, A
DEFENDANT MUST PROVE A LACK OF PRICE
IMPACT, NOT SIMPLY INTRODUCE EVIDENCE ON
THE ISSUE

Relying on Federal Rule of Evidence 301, petitioners
contend (Br. 37-43) that, once they produced evidence
suggesting a lack of price impact, the burden of persuasion on that issue shifted to respondents. That position
cannot be reconciled with this Court’s precedents, and
Rule 301 does not support it.
A. At the class-certification stage of a Rule 10b-5
suit, a plaintiff establishes the necessary predicates for
application of the fraud-on-the-market doctrine by
showing that the defendant made public misrepresentations about a security that trades in an efficient market,
and that class members purchased shares on that market at the relevant time. See Halliburton II, 573 U.S.
at 279; Basic, 485 U.S. at 246-247. When a plaintiff establishes those predicate facts, a court must presume
that the misrepresentations affected the market price
for the security, and that buyers and sellers during the
relevant period therefore relied (indirectly) on the misrepresentations, unless the defendant rebuts that presumption by a preponderance of the evidence.
The Court in Basic stated that defendants may rebut
the presumption of reliance if they “show that the misrepresentation in fact did not lead to a distortion of
price.” 485 U.S. at 248; see ibid. (“Any showing that
severs the link between the alleged misrepresentation
and either the price received (or paid) by the plaintiff,
or his decision to trade at a fair market price, will be
sufficient to rebut the presumption of reliance.”). An
appropriate “showing” is one that eliminates the causal
connection, such that once the showing has been made,

28
any “basis for finding that the fraud had been transmitted through market price would be gone.” Ibid. That
language clearly contemplates proof through which a
defendant satisfies a burden of persuasion, not merely
a burden of production. Compare Gross v. FBL Financial Services, Inc., 557 U.S. 167, 180 (2009) (characterizing the “burden of persuasion” as the responsibility
“to show” a fact with persuasive evidence) with Director
v. Greenwich Collieries, 512 U.S. 267, 272 (1994) (describing the burden of production as “a party’s obligation to come forward with evidence to support its
claim”).
More recently, in Halliburton II (itself a pricemaintenance case), this Court reiterated that a defendant “rebut[s] the [Basic] presumption by showing * * *
that the particular misrepresentation at issue did not
affect the stock’s market price.” 573 U.S. at 279 (emphasis added); see id. at 284 (Ginsburg, J., concurring)
(“[T]he Court recognizes that it is incumbent upon the
defendant to show the absence of price impact.”). The
Court explained that such a rebuttal is successful if the
defendant’s “direct, more salient evidence show[s] that
the alleged misrepresentation did not actually affect the
stock’s market price and, consequently, that the Basic
presumption does not apply.” Id. at 282 (majority opinion). Indeed, the Halliburton II Court squarely rejected the defendant’s argument that plaintiffs “should
be required to prove” price impact “in order to invoke
the [Basic] presumption,” explaining that “this proposal would radically alter the required showing for the
reliance element of the Rule 10b-5 cause of action.” Id.
at 278-279. That holding would largely be negated if a

29
Rule 10b-5 defendant, simply by introducing some evidence suggesting a lack of price impact, could shift the
burden of persuasion on this issue to the plaintiff.
B. Federal Rule of Evidence 301 does not mandate a
different result. 4
1. This Court has previously declined to rely on Rule
301 to modify how the Basic presumption operates. In
Halliburton II, the defendants made a substantially
identical argument about the import of Rule 301. See
Reply Br. at 23, Halliburton II, supra (No. 13-317)
(“Halliburton does not bear the burden of persuasion to
rebut the reliance presumption because Rule 301, which
Basic cited, governs all presumptions ‘unless a federal
statute * * * provide[s] otherwise.’ ”) (alterations and
brackets in original). The Court apparently did not find
the argument persuasive, since it squarely rejected the
defendants’ argument that a Rule 10b-5 plaintiff should
be required to prove price impact. Halliburton II, 573
U.S. at 278-279.
2. Several years before it decided Basic, this Court
explained that Rule 301 “merely defines the term ‘presumption.’ It in no way restricts the authority of a court
or an agency to change the customary burdens of persuasion in a manner that otherwise would be permissible.” National Labor Relations Board v. Transportation Management Corp., 462 U.S. 393, 404 n.7 (1983),
abrogated on other grounds by Greenwich Collieries,

Rule 301 states that, “unless a federal statute or these rules provide otherwise, the party against whom a presumption is directed
has the burden of producing evidence to rebut the presumption. But
this rule does not shift the burden of persuasion, which remains on
the party who had it originally.” Fed. R. Evid. 301.
4

30
supra. 5 Indeed, Rule 301 does not purport to disable
courts from adopting their own burden-shifting frameworks where that course is otherwise appropriate, but
instead states only that “this rule does not shift the burden of persuasion.” Fed. R. Evid. 301 (emphasis added).
Accordingly, nothing in Rule 301 precluded the Court in
Basic and Halliburton II from requiring a defendant to
prove the absence of price impact in order to defeat
class certification once a plaintiff has established the
prerequisites for invoking the fraud-on-the-market theory. And certainly nothing in Rule 301 requires the
Court, having already adopted that burden-shifting
framework, to abandon it now.
3. Petitioners also overstate the significance of this
Court’s use of the term “presumption” to describe the
doctrine adopted in Basic. As this Court explained in
declining to apply Rule 301 to a statutory provision declaring certain patents “ ‘presumed valid,’ ” “the word
‘presumption’ has often been used when another term
might be more accurate.” Microsoft Corp. v. i4i Ltd.
Partnership, 564 U.S. 91, 104 n.6 (2011); see, e.g., In re
G-I Holdings, Inc., 385 F.3d 313, 318 (3d Cir. 2004)
(Alito, J.) (rejecting the argument that “the term ‘presumption’ [must have been used] in the technical sense
expressed in Rule 301 of the Federal Rules of Evi-

In Greenwich Collieries, supra, this Court overruled Transportation Management Corp.’s holding about “the meaning of burden
of proof in § 7(c) of the” Administrative Procedure Act, 5 U.S.C. 551
et seq. See 512 U.S. at 276. But that overruling was based on the
Court’s understanding of the text and history of the phrase “burden
of proof ” in the APA. See id. at 276-278. The Court did not express
disagreement with its earlier description of Rule 301’s limited purpose; indeed, neither the majority nor the dissent in Greenwich Collieries cited Rule 301.
5

31
dence”). What the Basic Court described as a “presumption” of price impact could be (and indeed has
been) characterized instead as an “indirect proxy for
price impact,” “an indirect way of showing price impact,” or a “way to demonstrate the causal connection”
between an alleged misstatement and a monetary loss.
Halliburton II, 573 U.S. at 281; Basic, 485 U.S. at 243.
The content of this “substantive doctrine of federal
securities-fraud law,” Amgen, 568 U.S. at 462, does not
depend on the Court’s choice among those equally suitable labels.
Petitioners observe (Br. 41) that this Court referenced Rule 301 and its accompanying Advisory Committee notes in a “see also” citation in Basic. 485 U.S. at
245. The Court cited the Rule in the course of explaining that presumptions “[a]ris[e] out of considerations of
fairness, public policy, and probability,” and serve as
“useful devices for allocating the burdens of proof between parties.” Ibid. That description of the general
purposes of presumptions does not indicate that the
Court intended to adopt the specific burden-shifting approach described in Rule 301. The inference that petitioners urge is especially unwarranted given the Court’s
more specific statement elsewhere in the opinion that a
defendant would need to “show” that the “causal connection” was “broken,” id. at 248, in order to defeat
class certification once a plaintiff had successfully invoked the fraud-on-the-market theory.
C. Petitioners contend (Br. 33-34) that, if defendants
must actually disprove price impact to rebut the presumption of reliance, the presumption will be effectively
irrebuttable. Experience in the lower courts does not
support that contention.

32
Following Halliburton II, the courts of appeals that
have addressed this issue have uniformly understood
defendants to bear a burden of persuasion with respect
to price impact when plaintiffs make the predicate
showings of publicity and market efficiency. See, e.g.,
Waggoner v. Barclays PLC, 875 F.3d 79, 100-103 (2d
Cir. 2017) (holding that defendants bear the burden of
persuasion and that Rule 301 “imposes no impediment
to [that] conclusion”), cert. denied, 138 S. Ct. 1702 (2018);
In re Allstate Corporation Securities Litigation, 966
F.3d at 610 (same). At the certiorari stage, petitioners
contended (Pet. 21-23) that the Eighth Circuit held otherwise in IBEW Local 98 Pension Fund v. Best Buy
Co., 818 F.3d 775 (2016). That is incorrect. In Best Buy,
the court cited Rule 301 in passing to support the statement that the defendants “had the burden to come forward with evidence showing a lack of price impact.” Id.
at 782. But it did not suggest that defendants bear only
the burden of production; on the contrary, it concluded
that the defendants’ “overwhelming evidence * * * rebutted the Basic presumption” in that case. Ibid.
The lower courts’ correct view that a defendant must
prove a lack of price impact by a preponderance of the
evidence in order to rebut the Basic presumption has
not prevented courts from finding the presumption rebutted in appropriate cases. Courts have found that defendants disproved price impact, including in inflationmaintenance cases. See, e.g., Best Buy, 818 F.3d at 782
(finding that defendants had shown a lack of price impact, and that class certification therefore was improper); In re Chicago Bridge & Iron Co. N.V. Securities Litigation, No. 17 Civ. 1580, 2020 WL 1329354, at
*1 (S.D.N.Y. Mar. 23, 2020) (adopting special master’s

33
report finding no price impact for certain alleged misstatements) 6; Ohio Public Employees Retirement System v. Federal Home Loan Mortgage Corp., No. 08 Civ.
160, 2018 WL 3861840, at *17-*18 (N.D. Ohio Aug. 14,
2018) (denying class certification in price-maintenance
case based on finding that defendant’s expert had
demonstrated a lack of price impact, as well as finding
that plaintiffs had not shown market efficiency), appeal
pending, No. 20-4082 (6th Cir. f iled Oct. 13, 2020); In re
Finisar Corp. Securities Litigation, No. 11-cv-1252,
2017 WL 6026244, at *5-*7 (N.D. Cal. Dec. 5, 2017)
(f inding that defendants had rebutted presumption by
showing lack of price impact); In re Intuitive Surgical
Securities Litigation, No. 13-cv-1920, 2016 WL
7425926, at *16 (N.D. Cal. Dec. 22, 2016) (finding that
defendants in price-maintenance case had rebutted presumption and shown lack of price impact as to some alleged misstatements). Indeed, in Halliburton itself, the
district court found on remand that the defendants had
rebutted the presumption of price impact as to some alleged misstatements. Erica P. John Fund, Inc. v. Halliburton Co., 309 F.R.D. 251, 271, 273-274 (N.D. Tex.
2015).
The parade of horribles that petitioners invoke (Br.
34-35) therefore provides no sound reason for the Court
to revisit the evidentiary framework set forth in Basic.
Instead, the Court should adhere to that established
framework, as it did in the face of a nearly identical argument in Halliburton II.

See In re Chicago Bridge & Iron Co. N.V. Securities Litigation,
No. 17 Civ. 1580, 2019 WL 5287980, at *41 (S.D.N.Y. Oct. 18, 2019)
(report of special master f inding no price impact for certain alleged
misstatements).
6

34
CONCLUSION

The judgment of the court of appeals should be vacated and the case remanded for further consideration.
Respectfully submitted.
MICHAEL A. CONLEY
Acting General Counsel
JEFFREY A. BERGER
Senior Litigation Counsel
BROOKE WILLIG
Attorney
Securities and Exchange
Commission

FEBRUARY 2021

ELIZABETH B. PRELOGAR
Acting Solicitor General
MALCOLM L. STEWART
Deputy Solicitor General
BENJAMIN W. SNYDER
Assistant to the Solicitor
General

